U.S. Department of the Interior
Office of Inspector General




             AUDIT REPORT


   FOLLOWUP OF GENERAL CONTROLS
OVER AUTOMATED INFORMATION SYSTEMS,
     OPERATIONS SERVICE CENTER,
      BUREAU OF INDIAN AFFAIRS

               REPORT NO. 98-I-483
                   JUNE 1998
                                                                         A-IN-BIA-001-97

             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240        JUN IO u98

                                 AUDIT REPORT
Memorandum

To:       Assistant Secretary for Indian Affairs

From:     Robert J. Williams
          Acting Inspector General

Subject: Audit Report on Follow-up of General Controls Over Automated lnformation
         Systems, Operations Service Center, Bureau of Indian Affairs (No . 9 8 -1-b 8 3 >


                                INTRODUCTION
This report presents the results of our followup audit of recommendations contained in our
April 1997 audit report titled “General Controls Over Automated Information Systems,
Operations Service Center, Bureau of Indian Affairs” (No. 97-I-771). The objective of our
followup audit was to determine whether the Bureau of Indian Affairs had satisfactorily
implemented the recommendations made in our prior audit report and whether any new
recommendations were warranted. This audit supports the annual financial statements audits
of the Bureau and the Office of the Special Trustee for American Indians by evaluating the
reliability of the general controls over computer-generated data that support the financial
statements.                .

BACKGROUND
The Operations Service Center is organizationally under the Bureau’s Office of Information
Resources Management and is located in Albuquerque, New Mexico. The Center operated
an IBM and a Unisys mainframe computer and provided computer services such as
telecommunications; software development, operations, and maintenance; systems recovery;
and user support and is responsible for the Bureau’s automated information system security.
The IBM computer was used to run Bureau applications such as the Land Records
Information System and the National Irrigation Information Management System. The
Unisys computer was used to run Office of the Special Trustee for American Indians
applications such as the Individual Indian Monies application and Bureau applications that
supported the Indian trust fund accounts.

In response to our prior audit, the Bureau informed us that the IBM and Unisys mainframe
computer operations and data processing functions were being transferred to a host computer
owned by the U.S. Geological Survey, located in Reston, Virginia. The operating and data
processing functions provided by the Geological Survey were to allocate space on the host
computer for the Bureau to operate and run its IBM operating system, applications, and
security software; to provide for physical security over the host computer; to back up and
recover data and files; and to provide off-site storage of backed up data and files.

SCOPE OF AUDIT

The scope of our followup audit included an evaluation of the actions taken by Bureau
management to implement the 13 recommendations made in our April 1997 audit report. In
addition, we reviewed the Bureau’s progress in moving the Center’s mainframe data
processing functions to the Geological Survey’s host computer in Reston because of the
impact that moving the data processing functions will have on Bureau management’s ability
to implement the recommendations.

This review was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. We reviewed internal controls only to the extent that they related to
corrective actions taken by Bureau management on the recommendations contained in the
April 1997 audit report.

                                RESULTS OF AUDIT
Our April 1997 audit report concluded that the general controls over the Bureau of Indian
Affairs automated information systems at the Center were not effective. Specifically, an
effective security program had not been implemented; controls over access, software
development and changes, segregation of duties, and system software were inadequate; and
a service continuity plan had not been developed and implemented. The general controls
were not effective because Bureau management had not developed a formal, up-to-date, and
comprehensive system security program or established formal policies, standards, and
procedures for computer operations. Additionally, the Bureau’s Information Technology (IT)
Security Manager* function was not at the appropriate organizational level, and adequate
funding and personnel were not provided to fully support the Center’s mission. The audit
concluded that the deficient general controls significantly increased the risk of unauthorized
access; modifications to and disclosure of sensitive data maintained in the Center’s
mainframe computers; theft or destruction of hardware, software, and sensitive data; and
loss of critical systems and functions in the event of a disaster. In addition, the deficient
controls decreased the reliability of the data maintained on the Center’s computers. Our
April 1997 audit report contained 13 recommendations for improving the general controls
over the Bureau’s automated information systems at the Center.



‘This position was formerly known as the Bureau’s Automated Information Systems Security Officer. The
Departmental Manual (375 DM 19, “Information Technology Security”) changed the title to “Bureau IT
Security Manager.”

                                                 2
Of the 13 recommendations made, we found that the Bureau had partially implemented 2
recommendations and had not implemented 10 recommendations and that 1 recommendation
was no longer applicable because the Bureau changed its plans for the Unisys computer (see
Appendix 1). Therefore, we concluded that the general control weaknesses and risks
identified by our prior audit for fiscal year 1996 continued to exist during fiscal year 1997.
We have made eight new recommendations to address the weaknesses we found during the
followup audit.

In its response to the April 1997 audit report, the Bureau also stated that many of the
weaknesses identified would be corrected with the movement of the Center’s data processing
functions to the Geological Survey’s host computer. However, the Center will continue, at
least for fiscal year 1998, to control, operate, and maintain its computer operating system and
security software and to schedule production runs manually rather than use the Geological
Survey’s host computer operating, security, and automated job scheduling systems.
Therefore, the control weaknesses increase the risk of loss of data integrity through fiscal
year 1998. Accordingly, we believe that Bureau management should establish as a high
priority the use of the Geological Survey’s host computer systems to reduce the Bureau’s risk
of loss of data integrity. Additionally, management within the Bureau and the Office of the
Special Trustee for American Indians did not move their applications that resided on the
Center’s Unisys mainframe to the Center’s IBM mai&ame, which would have then been
moved to the Geological Survey’s host computer, but instead planned to move their
applications to the Unisys server. Thus the corrective actions outlined in the Bureau’s
response to the prior report that relied on the movement of all data processing functions from
the Center to the Geological Survey were not completed.

In its response to the April 1997 audit report, the Bureau stated, “In conjunction with the
transfer of mainframe data processing from the Bureau, some reorganization or redescription
of positions within the Office of Information Resources Management will be necessary.”
The Bureau further stated that “completion of the reorganization is October 1,1997 with an
effective date of December 1,1997.” We found that Bureau management had not formally
reorganized the Office of Information Resources Management but that Center management
had informally reorganized the Center to prepare for providing services as a network
management center. (A network management center provides enhanced customer support
that uses advanced technologies for network connectivity and problem solving and
developing and maintaining client/servers.*) Although the Center was being reorganized as
a network management center, we did not find an approved strategic plan for such a center.
As a result, corrective actions that were dependent on the reorganization of the Office of
Information Resources Management were not completed.




2A “client/server” application functions on a client/server processing environment, which is a computerized
architecture in which one or more “computers called servers manage shared resources and provide access to
those shared resources as a service to their clients,” which are personal computers. (David Vaskevitch,
Client/Server Strategies. a Survival Guide for Cornorate Reengineering, IDG Books Worldwide, Inc., San
Mateo, California, 1993, page 96.)

                                                    3
Recommendation A. 1.          The information technologv securitv function be elevated
organizationally to at least renort directly to the Director, Office of Information Resources
Management: is formally nrovided with authoritv to imnlement and enforce a Bureauwide
svstem securitv nrogram: and is provided staff to perform the reauired duties, such as
providing commuter securitv awareness training; and nerforming neriodic risk assessments.

Recommendation A.2. A svstem securitv nrogram is develoned and documented which
includes the information reauired bv the Commuter Securitv Act of 1987 and Office of
Management and Budget Circular A- 130, Anpendix III. and that Policies and nrocedures are
implemented to keep the system securitv nrogram current.

Regarding Recommendation A. 1, our prior audit found that because the Bureau’s IT Security
Manager function was within the Center, the security function did not have adequate
independence or authority to implement and enforce a Bureauwide system security program.
The security staff consisted only of the IT Security Manager and another staffperson. Most
of the security staff’s time was spent administering security at the Center and administering
user access to the computer systems. Although users were provided written information
about system security issues when access to computer systems and applications was
approved, the Center did not have an employee computer security awareness training plan.
Further, the security staff had not provided periodic computer security training to Bureau area
and agency offices and other organizations such as schools. Additionally, a 1996 contractor-
performed risk assessment recommended that the system security function be moved from
the Center and elevated organizationally, but the recommendation had not been implemented
at the time of our current audit.

Regarding Recommendation A.2, our prior audit found that the security implementation plan
for the Bureau’s automated information systems for fiscal year 1996 was not documented.
Although a security implementation plan was prepared by November 1996 (for fiscal year
1997), the plan did not meet the detailed requirements of Office of Management and Budget
Circular A- 130, Appendix III, “Security of Federal Automated Information Resources.” The
plan addressed the security needs of the Bureau, but the plan did not address the security
needs of the Office of the Special Trustee or include specific steps to meet the security needs
of the Bureau and the Office of the Special Trustee, thus ensuring that an adequate security
program was in place for the automated systems of the Bureau and the Office of the Special
Trustee. The Bureau did not have an adequate security program because the Bureau reported
that “virtually no security planning” had occurred because of the downsizing of the Office
of Information Resources Management. We also found that Bureau management did not
assess the effectiveness of the Bureau’s system security program as part of its annual review
under the Federal Managers’ Financial Integrity Act.

In its response to the prior audit report, the Bureau stated, as part of its reorganization and
redescription of the Office of Information Resources Management, that “the position of
Security Officer will be elevated to report directly to the Director of OIRM [Office of
Information Resources Management] .” In addition, the Bureau concurred “with respect to
those functions which will remain the responsibility of the Bureau subsequent to the transfer
of mainframe data processing to the U. S.G. S. [Geological Survey]” and that the development

                                               4
of the policies and procedures would be the responsibility of the Bureau IT Security
Manager, who would complete them by October 1, 1997. Bureau management agreed to
provide the security staff with the authority to implement and enforce a Bureauwide system
security program but did not agree to provide additional staff to meet the responsibilities.
The Bureau stated that “[t]he recommendation would be appropriate if the Bureau were to
continue to operate mainframe data processing,” but that the data processing “function will
be transferred to U.S.G.S. [Geological Survey], [and]. . . the Bureau Security Officer and his
staff will be able to manage the reduced security requirements of the Albuquerque OIRM
[Office of Information Resources Management] site.”

Our followup review found that the IT Security Manager continued to report to the Acting
Chief of the Center and that the IT Security Manager had not (1) developed new or revised
policies and procedures for a Bureauwide system security program, (2) implemented and
enforced a security program, and (3) evaluated the effectiveness of the security program. The
Departmental Manual (375 DM 19) states:

         Bureau IT Security Manager is responsible for: managing the bureau IT
         security program, coordinating all bureau activities designed to protect IT
         resources, coordinating bureau IT security training programs, and reporting
         on the effectiveness of these activities to the bureau and Departmental
         management.

Additionally, Office of Management and Budget Circular A- 130, Appendix III, requires that
controls over general support and major application systems be reviewed every 3 years or
more frequently if significant changes are made to the systems or risks are determined to be
high.3 Further, the IT Security Manager position description included these responsibilities.
However, Bureau management had not held the IT Security Manager accountable for
performing these duties.

The Center was performing data processing functions and serving as a general support
system, since it will continue to control the operating system, security software, and
application processing for the IBM applications; operate and run a Unisys computer and
applications; and operate as a network management center. We believe that the need for
Bureauwide system security planning, implementation, and training and for system security
oversight will not diminish but will increase and be more complex. Without a system
security program, Bureau management has little assurance that its existing system security
is operating effectively. Additionally, the Bureau will not be in compliance with Office of
Management and Budget Circular A-l 30, Appendix III, because an adequate system security


‘Office of Management and Budget Circular A- 130, Appendix III, “Security of Federal Automated Information
Resources,” defines a general support system as “an interconnected set of information resources under the same
direct management control which shares common functionality.” The Circular further states that a general
support system “normally includes hardware, software, information, data, applications, communications and
people” and that examples of a system are a local area network, . . . an agency-wide backbone, a
communications network, [and] a departmental data processing center including its operating system and
utilities.”

                                                      5
program was not in place and the system security program had not been evaluated for its
effectiveness during the past 3 years. We consider these recommendations not implemented
because Bureau management did not (1) elevate the IT Security Manager function to report
directly to the Chief, Office of Information Resources Management; (2) hold the IT Security
Manager accountable for performing position description responsibilities; and (3) ensure that
the Bureau had an effective system security program. Further, we believe that once a security
program is implemented, Bureau management should ensure that an evaluation of the
effectiveness of the program is performed periodically and that the Bureau includes any
resultant corrective actions in future Bureau security plans.

Recommendation A.3. The Bureau’s securitv personnel nerform risk assessments of the
Bureau’s automated information systems environment and. as appropriate, Provide assurance
that the necessary changes are implemented to manage the risks identified.

Recommendation C. 1. The Bureau develon and implement policies to classifv the Bureau’s
computer resources in accordance with the results of Periodic risk assessments and guidance
contained in Office of Management and Budget Circular A- 130, Annendix III.

Regarding Recommendation A.3, our prior audit found that risk assessments had not been
performed periodically or that they had not been performed when systems, facilities, or other
conditions changed. Specifically, since 1990, only two risk assessments had been performed.
These assessments were of the Center’s previous mainframe configuration in 1990 and the
local area networks of the Albuquerque Central Offices in 1996. While we determined that
these assessments were adequate, none of the recommendations from the risk assessments
had been implemented. Regarding Recommendation C. 1, we found that Bureau management
had not classified its computer resources, such as data files, application programs, and
computer-related facilities and equipment. Resource classification allows management to
(1) determine the level of security that should be provided to protect against unauthorized
modification, disclosure, loss, or impairment and (2) determine whether security controls
should be implemented or document Bureau management’s acceptance of the risk.

In its response to the prior audit report, the Bureau stated that “the FY [fiscal year] 1996
reduction-in-force eliminated OIRM [Office of Information Resources Management] staffs
capability to perform risk assessments [and resource classifications].” The Bureau further
stated that “from the resources freed as a result of the transfer of data processing and as part
of the reorganization/redescription . . . , positions will be established to perform the
necessary risk assessments [and resource classifications].” The Bureau also stated that the
risk assessments and classifications “will commence in July 1998” and “will be completed
within 18 months of that date.”

We agreed with the Bureau’s statement that commencement of risk assessments and resource
classifications could be performed by resources that will become available as a result of
transferring data processing functions to the Geological Survey. However, since the
Bureau’s response to the prior audit report, the then Chief, Office of Information Resources
Management, retired, and the position had not been filled by the end of fiscal year 1997.
Consequently, Bureau management had not developed and implemented its

                                               6
reorganization/redescription for the Office of Information Resources Management. Further,
we found that Center personnel had not become available to perform the assessments and
classifications because the Center had not transferred all of its data processing
responsibilities to the Geological Survey and was continuing to function as a general support
system. In addition, Bureau management had not approved an information technology
strategic plan for the Center to provide direction following the consolidation with the
Geological Survey’s host computer. Further, all of the owners of the Bureau’s automated
information system resources could not be identified. Therefore, we believe that the risk
assessment and resource classification reviews cannot be performed in the time fiame
identified in the Bureau’s response, Accordingly, we consider these recommendations not
implemented. We believe that Bureau management should redetermine when the Bureau can
begin performing its risk assessments and resource classifications.

Recommendation B. 1.        Ensure that personnel securitv Policies and Procedures are
developed, imnlemented, and enforced, including those for obtaining appropriate securitv
clearances for personnel in sensitive or critical ADP [automated data processing1 positions
and for informing the securitv staff. in writing, whenever emnlovees who are system users
terminate their emplovment or are transferred.

Recommendation E. 1. Ensure that Policies are developed and implemented which match
personnel files with system users periodicallv. that user IDS are deleted from the system for
users whose emplovment has been terminated. and that verification and anproval are
obtained from users’ supervisors and application owners or manapers that the levels of access
are anpronriate.

Regarding Recommendation B. 1, our prior audit found that personnel in sensitive or critical
ADP positions, such as system and application programmers, including application
programmers not assigned to the Center, did not have documented background investigations
for security clearances or did not have security clearances at a level commensurate with their
positions. In addition, we found that, although the IBM computer had been set to
automatically revoke a user identification (ID) after 180 days of inactivity, supervisors did
not notify the application owner or manager or the Center’s security staff to revoke and
delete a user ID when an employee’s employment was terminated or when an employee was
transferred. Regarding Recommendation E. 1, we found that IT security staffand application
owners did not periodically review user access authorizations to ensure that the levels of
access to computer resources were appropriate.

Regarding Recommendation B. 1, the Bureau stated in its response to the prior audit report
that “The necessary information will be submitted to the Office of Personnel Management
to conduct/update the clearances of the Operations Service Center staff by June 1, 1997.”
In addition, the Bureau stated that actions will be taken to provide a report monthly to the
Office of Information Resources Management which identifies employees who transferred
within the Bureau and employees whose employment was terminated so that system access
can be reviewed and modified or revoked.



                                              7
Regarding Recommendation E. 1, the Bureau stated that the action taken to implement this
recommendation was the transfer of the mainframe data processing to the Geological
Survey’s host computer and that December 1, 1997, was the target date for the completion
of the transfer. In addition, we accepted the action to be taken by the Bureau for
Recommendation B. 1, to provide a monthly report to the Office of Information Resources
Management, as appropriate to partially implement Recommendation E. 1.

Our followup audit found that policies and procedures were not developed, implemented, and
enforced for ensuring that (1) appropriate security clearances for personnel in sensitive or
critical ADP positions were obtained, (2) security staff was informed whenever employees
who were system users terminated their employment or were transferred, (3) security
clearances had not been updated for all Bureau employees who filled sensitive or critical
ADP positions except for 14 of the 55 Center employees who filled such positions, and (4)
users’ levels of access were reviewed and validated periodically. The “Generally Accepted
Principles and Practices for Securing Information Technology Systems,” issued by the
National Institute of Standards and Technology, recommends that reviews and validation of
the appropriateness of users’ levels of access be performed periodically and, if necessary, the
users’ access be modified or revoked. Although reports were to be produced monthly that
were to identify employees who had transferred within the Bureau or employees who had
terminated their employment, Bureau management had not ensured that the reports were
provided to the Bureau’s IT security management staff. Additionally, we found that the
agreement between the Bureau and the Geological Survey did not include provisions for the
Geological Survey to ensure that users’ levels of access were properly authorized and were
appropriate for the users to perform their day-to-day duties or that access would be validated
periodically for the Bureau’s IBM applications.

Accordingly, we consider Recommendation B. 1 partially implemented and Recommendation
E. 1 not implemented. Additionally, Bureau management should ensure that personnel who
are not assigned to the Center and who are in sensitive or critical ADP positions have
security clearances commensurate to the positions held. Further, if Bureau management does
not require Bureau personnel to review and validate the appropriateness of users’ levels of
access to the Bureau’s IBM applications, the agreement between the Bureau and the
Geological Survey should be modified to include the requirement that the Geological Survey
perform periodic reviews and validate the appropriateness of users’ levels of access to the
Bureau’s IBM applications.

Recommendation D.1. Sufficient staff are provided to adequately monitor all visitor
activities.

Recommendation D.2. Funding is provided for adeouate maintenance of the commuter
operations room. such as nroviding daily housekeeping services, or that fire-producing
equipment and sunnlies are removed from the computer room.

Our prior audit found that the Center was located within a Federal building that provides
unauthorized individuals access to the Center. To ensure that the Center and its resources
were safeguarded, physical access to the Center was achieved by electronic key cards and

                                              8
monitored by video cameras. However, custodial (contractor) personnel and building
managers were provided key cards, which afforded an opportunity for uncontrolled access
to the Center. Additionally, we found that general housekeeping and maintenance of the
computer operations room were performed only weekly. This weekly schedule was not
adequate because of the failure to remove potential fire hazards, such as combustible supplies
and dust produced by paper used in the printer, that were housed in the computer operations
room.

In its response to the prior audit report, the Bureau stated, “The action taken to implement
these recommendations is the conversion of the mainframe data processing to the U.S.G.S.
[Geological Survey] host computer.”

Our followup audit found that, while the Bureau may no longer house the IBM and Unisys
mainframe computers in the computer operations room, a clean and well-maintained
computer operations room was still needed. The computer operations room housed server
computers and telecommunications equipment for the Bureau’s wide area network and the
Albuquerque Central Office’s local area networks. We found that custodial staff and
building managers continued to have access to this sensitive area and that the room was
cleaned only weekly. In addition, the printers and other combustible supplies remained in
the room. Further, physical hazards, such as file cabinets placed in front of printers, existed
for personnel who operated and maintained the computer equipment and peripherals.
Therefore, we consider these recommendations not implemented.

Recommendation F. 1. Ensure that a higher priori& is liven to moving the applications that
reside on the Unisys mainframe to the IBM mainframe.

Our prior audit found that passwords were not changed periodically and inactive user IDS
were not automatically revoked on the Unisys computer. Additionally, greater reliance had
to be placed on the user ID and password controls to protect the applications, files, and data
because the applications residing on the Unisys computer were developed without access
controls and could not be modified to install the access controls. Therefore, these controls
were inadequate. However, the Bureau and the Office of the Special Trustee were planning
to move the applications residing on the Unisys mainframe to the IBM mainframe.

In its response to the prior audit, the Bureau stated that it would transfer the data processing
functions to the Geological Survey’s host computer.

Our followup audit found that the applications which resided on the Unisys mainframe were
not converted to the Bureau’s IBM mainframe; therefore, the Unisys applications could not
be moved to the Geological Survey’s host computer. The Unisys applications could not be
converted because of the lack of documented programs and because of the antiquated
programming language used for the Unisys applications. The contractor estimated the cost
to convert the applications to be in excess of $1 million. However, as an interim solution,
the Department’s Office of Information Resources Management approved the Bureau’s
acquisition of a Unisys server computer. The applications would be moved from the Unisys
mainframe to the Unisys server. The Department’s Office of Information Resources

                                               9
Management stated that the Bureau should continue to convert these applications to operate
on an IBM mainframe computer. In our opinion, because the Office of the Special Trustee
was redeveloping its applications that reside on the Unisys server computer, the Unisys
applications should not be converted to the Geological Survey’s host computer, as originally
recommended, but be maintained on the Unisys server until the Office of the Special
Trustee’s redevelopment project is completed. This action could save the Bureau at least
$1 million in conversion costs. We believe that the Bureau should not implement the
original recommendation because of the costs involved in converting the Unisys applications.
Accordingly, we consider the recommendation resolved because it is no longer applicable.

Recommendation G. 1. Ensure that Policies and procedures are develoned and implemented
which clearly identifv the individuals responsible and accountable for application
develonment and changes.

Our prior audit found that the software development and change controls were inadequate
to ensure that the proper version of an application was used in production. Based on our test
of the National Irrigation Information Management System, we found that the application
programmers not only programmed the application but also tested, authorized, and approved
the movement of the modified programs from test or development into production. In
addition, the lead programmer was not notified of software modifications. Further, one
member of the Center’s systems staff, who was a programmer, could move application
software changes from test or development into production without the approval of the lead
programmer.

In its response to the prior report, the Bureau stated that the Office of Information Resources
Management was “in the process of expanding and documenting improved procedures in this
area” and that the target date for completion was July 1, 1997.

Our followup audit found that new or revised policies and procedures related to application
development and changes were not developed and that individuals had not been assigned
responsibilities for application development or changes. Because the policies and procedures
had not been developed and responsibility had not been assigned, controls for application
software development and change had not improved. For the National Irrigation Information
Management System, the application programmers continued to test applications and to
approve the movement of the modified programs into production without the knowledge of
the lead programmer. For the Loan Management and Accounting System, the application
developer did not fully document change requests or modifications to the System. In
addition, the Loan Management and Accounting System application developer had full
access to user passwords and the loan databases. Further, Center personnel and contractors
were developing client/server applications without any documented Bureau management
support. Accordingly, we consider this recommendation not implemented.

Recommendation H. 1. Ensure that staffing at the Center is evaluated and adiusted so that
duties for critical system SUDDOI-~ functions are adeauatelv segregated and fully utilized.



                                              10
Recommendation I. 1. Ensure that access and activities of the Center’s system nrogrammers
are controlled and monitored bv security staff and that Resource Access Control Facilitv
[RACF) controls are established to Protect system resources.4

Regarding Recommendation H.1, our prior audit found that the duties for the support
functions of system design, application programming, systems programming, quality
assurance/testing, library management, change management, data control, data security, and
data administration were not adequately segregated between different individuals.

Regarding Recommendation I. 1, we found that controls established over system software
were not effective in detecting and deterring inappropriate use. Specifically, periodic
reviews of the System Maintenance Facility logs and RACF access reports were not
performed by the security staff to monitor system activities effectively. Additionally, the
security staff produced reports that identified users and the computer resources accessed;
however, the staff had not produced or used the primary “auditing” or monitoring reports that
could be used to provide oversight of system activities. One system programmer had “alter”
access to system software, the System Maintenance Facility logs, and RACF logs, which
provided an opportunity for the programmer to alter his activities, as well as those of other
users. Thus, the audit trails of system activities could be impaired or destroyed. Further, the
RACF could be used to establish controls and monitor access to the computer resources, but
it had not been set up to effectively control access to the system resources. We found that
one of the “start procedures” could bypass all verification processing, including the security
classification checks, and therefore affect the overall security of the system. Further, RACF
was not used to protect critical system resources, including the system parameter library,
linklist libraries, master catalog, and the primary and backup files. Finally, no logging or
audit trails were available.

In its response to the prior audit report, the Bureau stated that it will implement these
recommendations through the “conversion of the mainframe data processing” to the
Geological Survey’s host computer.

Our followup audit found that Center management had not segregated system functions and
had not changed the use of the RACF to be an effective critical resource control.
Specifically, functions such as systems design, application programming, systems
programming, quality assurance/testing, library management, change management, data
control, data security, and data administration had not been segregated between different
individuals. Further, one system programmer continued to have “alter” access to system
software, the System Maintenance Facility logs, and RACF logs. Because the Center will
continue to maintain control over the IBM operating system and security software at the
Geological Survey’s host computer through at least fiscal year 1998 and will continue to


4Resource Access Control Facility (RACF) is an IBM-licensed software security product that protects
information by controlling access to the information. RACF provides security by identifying and verifying
users to the system, authorizing users’ access to protected resources, and recording and reporting access
attempts. (Resource Access Control Facilitv General Users Guide, Version 1. Release 9.2,9th edition, IBM
Corp., 1993, page l-l.)

                                                   11
operate Unisys applications, the need for segregation of duties between different individuals
and the use of RACF controls to protect system resources still exists. Accordingly, we
consider these recommendations not implemented.

Recommendation J.1. Ensure that a contingencv ~1a.n is developed and tested and that
funding is provided for acquiring a secure off-site storage facilitv.

Our prior audit found that the Center did not have an effective means to recover or to resume
computer operations in the event of a system failure or a disaster. The Center was
developing a service continuity plan for fiscal year 1997. The off-site storage facility was
not located at least 1 mile from the Center, and the facility did not adequately safeguard
information and data stored from unauthorized access and environmental hazards such as
heat and humidity. Thus, the data stored were at risk of loss or damage.

In its response to the prior audit report, the Bureau stated, “To ensure service continuity in
case of system failure or a disaster, the Office of Information Resources Management
(OIRM) has a contract for back-up of it’s a-17 [unisys] computer.” The Bureau further
stated, “OIRM has determined that a similar contract for its IBM 3090 computer is not
warranted because of the pending transfer to the U.S. Geological Survey (USGS) of the data
processing operation.” The Geological Survey had indicated that it had a contract which
would cover the Bureau’s systems during the transfer to the host computer. The Bureau did
not specifically respond to the recommendation on acquiring a secure off-site storage facility.

Our followup audit found that the Bureau did have a contract and, in a test situation, had
successfully recovered its Unisys applications. However, the Bureau had not acquired an
environmentally sound and secure off-site storage location. As such, the backup tapes were
stored on-site in the Center’s computer room. Accordingly, we consider the recommendation
partially implemented.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs ensure that the Bureau of
Indian Affairs:

    1. Establishes as a high priority the use of the Geological Survey’s host computer’s
operating, security, and automated job scheduling systems.

    2. Develops and approves an Office of Information Resources Management strategic
plan which provides direction to and defines the functions of the Operations Service Center.

    3. Holds the IT Security Manager accountable for performing the position
responsibilities.

   4. Performs periodically an evaluation of the system security program’s effectiveness
and includes any resultant corrective actions in future Bureau security plans.


                                              12
    5. Redetermines, based on the Office of tiormation Resources Management’s strategic
plan, when the Bureau can begin performing risk assessments and classifying its resources.
Also, personnel who will be responsible for the risk assessments and resource classifications
should be identified.

    6. Obtains security clearances for ADP personnel who are not assigned to the Center
that are commensurate with their positions.

    7. Requires Bureau staff to review and validate the appropriateness of users’ levels of
access to the Bureau’s IBM applications. If the users’ levels of access are not reviewed and
validated by Bureau personnel, the Bureau should modify its agreement with the Geological
Survey to include the requirements that access reviews and verifications be performed for
the IBM applications by the Geological Survey.

    8. Removes all safety hazards from the computer operations room.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the May 19,1998, response (Appendix 2) from the Assistant Secretary for Indian Affairs
to this audit report, the Bureau concurred with Recommendations 1,2,3,4,5,6, and 7 and
concurred “in part” with Recommendation 8. Based on the response, we consider
Recommendations 1 and 8 resolved and implemented and Recommendations 2,3,4,5, and
6 resolved but not implemented. Accordingly, the unimplemented recommendations will
be referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation. Also based on the response, the Bureau is requested to provide additional
information for Recommendation 7 (see Appendix 3).

Regarding our April 1997 report, the Bureau in its May 1998 response, concurred with
Recommendations A. 1, A.2, A.3, B. 1, C. 1, E. 1, G. 1, H. 1, I. 1, and J. 1 and concurred in part
with Recommendations D. 1 and D.2. Based on the response, we consider Recommendations
A. 1, D. 1, I. 1, and J. 1 resolved and implemented and Recommendations A.2, A.3, B. 1, C. 1,
D. 1, E. 1, G. 1, and H. 1 resolved but not implemented (see Appendix 4). Accordingly, this
information on the prior recommendations will be forwarded to the Assistant Secretary for
Policy, Management and Budget.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by July 10, 1998. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.


                                               13
                                                                                     APPENDIX 1
                                                                                       Page 1 of 4


    SUMMARY OF RECOMMENDATIONS AND CORRECTIVE
              ACTIONS FOR AUDIT REPORT
   “GENERAL CONTROLS OVER AUTOMATED INFORMATION
         SYSTEMS, OPERATIONS SERVICE CENTER,
              BUREAU OF INDIAN AFFAIRS”

                                                              Status of Recommendations and
             Recommendations                                         Corrective Actions


A.1. The information technology security                Not implemented. Bureau management had
function is elevated organizationally to at             not reorganized the Office of Information
least report directly to the Director, Office of        Resources Management to elevate the
Information Resources Management; is                    information technology security function to
formally provided with authority to                     report directly to the Director, Office of
implement and enforce a Bureauwide                      Information Resources Management.
system security program; and is provided                Bureau management also had not ensured
staff to perform the required duties, such as           that the information technology security
providing computer security awareness                   function was provided with authority to
training and performing periodic risk                   implement and enforce a Bureauwide
assessments.                                            system security program. In its response,
                                                        Bureau officials stated that the staff would
                                                        not be increased because of the transfer of
                                                        data processing functions to the Geological
                                                        Survey, which has not occurred.

A.2. A system security program is                       Not implemented. A revised system security
developed and documented which includes                 program and new or revised policies and
the information required by the Computer                procedures had not been developed, and an
Security Act of 1987 and Office of                      evaluation of the security program’s
Management and Budget Circular A-l 30,                  effectiveness had not been performed.
Appendix III, and that policies and
procedures are implemented to keep the
system security program current.

A.3. The Bureau’s security personnel                    Not implemented. Corrective actions to
perform risk assessments of the Bureau’s                implement the recommendation, such as the
automated information systems environment               reorganization of the Office of Information
and, as appropriate, provide assurance that             Resources Management and the transfer of
the necessary changes are implemented to                data processing functions to the Geological
manage the risks identified.                            Survey, had not occurred.




                                                   14
                                                                                    APPENDIX 1
                                                                                      Page 2 of 4




B. 1 Ensure that personnel security policies          Partially implemented. No new or revised
and procedures are developed, implemented,            personnel security policies and procedures
and enforced, including those for obtaining           had been developed. Although the necessary
appropriate security clearances for personnel         paperwork to initiate security clearances for
in sensitive or critical ADP positions and for         14 Center employees had been prepared,
informing the security staff, in writing,             security clearance paperwork had not been
whenever employees who are system users               initiated for employees who were not
terminate their employment or are                     assigned to the Center and performed ADP
transferred.                                          sensitive and critical functions. Also,
                                                      Bureau management was to provide the
                                                      security staff with monthly reports that
                                                      identified Bureau personnel who had
                                                      terminated their employment or who were
                                                      transferred; however, the reports had not
                                                      been provided to the security staff.

C.1. Develop and implement policies to                Not implemented. No new or revised
classify the Bureau’s computer resources in           policies had been developed. Additionally,
accordance with the results of periodic risk          Bureau management had not taken
assessments and guidance contained in                 corrective actions, such as reorganizing the
Office of Management and Budget Circular              Office of Information Resources
A- 130, Appendix III.                                 Management and transferring data
                                                      processing functions.

D. 1. Sufficient staff are provided to                Not implemented. Corrective actions were
adequately monitor all visitor activities.            dependent upon transferring data processing
                                                      functions to the Geological Survey, which
                                                      had not occurred. However, the Center had
                                                      installed server computers and network
                                                      communications equipment that also
                                                      required safeguarding.

D.2. Funding is provided for adequate                 Not implemented. Corrective actions were
maintenance of the computer operating                 dependent upon data processing functions
room, such as providing daily housekeeping            being transferred to the Geological Survey,
services, or that fire-producing equipment            which had not occurred. However, the
and supplies are removed from the computer            Center had installed server computers and
room.                                                 telecommunications equipment in the
                                                      computer operations room, which also
                                                      needed to be protected from dust and fire
                                                      hazards.


                                                 15
                                                                                     APPENDIX 1
                                                                                       Page 3 of 4




E. 1. Ensure that policies are developed and           Not implemented. No new or revised
implemented which match personnel files                policies had been developed. Additionally,
with system users periodically, that user IDS          Bureau management was to provide the
are deleted from the system for users whose            security staff with monthly reports
employment had been terminated, and that               identifying Bureau personnel who had
verification and approval are obtained from            terminated their employment or who were
user supervisors and application owners or             transferred; however, the reports had not
managers that the levels of access are                 been provided to the security staff.
appropriate.                                           Additionally, Bureau management’s
                                                       corrective action was dependent upon
                                                       transferring data processing functions to the
                                                       Geological Survey.          However, data
                                                       processing functions were not transferred,
                                                       and the agreement between the Bureau and
                                                       the Geological Survey did not contain
                                                       provisions for the Geological Survey to
                                                       ensure that users’ levels of access were
                                                       properly authorized and were appropriate for
                                                       the users to perform their day-to-day duties
                                                       or that the access would be validated
                                                       periodically.

F. 1. Ensure that a higher priority is given to        Resolved. The recommendation is no
moving the applications that reside on the             longer applicable.
Unisys mainframe to the IBM mainframe.

G. 1. Ensure that policies and procedures are          Not implemented. No new or revised
developed and implemented which clearly                policies had been developed.
identify the individuals responsible and
accountable for application development
and changes.




                                                  16
                                                                                    APPENDIX 1
                                                                                      Page 4 of 4




H.1. Ensure that staffing at the Center is            Not implemented. Corrective actions were
evaluated and adjusted so that duties for             dependent upon data processing functions
critical system support functions are                 being transferred to the Geological Survey.
adequately segregated and fully utilized.             However, for at least fiscal year 1998, the
                                                      Bureau will continue to operate and control
                                                      the IBM operating system and security
                                                      software after the transfer to the Geological
                                                      Survey. Additionally, the Bureau will be
                                                      operating and controlling a Unisys server
                                                      computer and maintaining the applications
                                                      that will reside on the Unisys computer.

I. 1. Ensure that access and activities of the        Not implemented. Corrective actions were
Center’s system programmer are controlled             dependent upon data processing functions
and monitored by security staff and that              being transferred to the Geological Survey.
RACF controls are established to protect              However, for at least fiscal year 1998, the
system resources.                                     Bureau will continue to operate and control
                                                      the IBM operating system and security
                                                      software.

J.1. Ensure that a contingency plan is                Partially implemented.            Although a
developed and tested and that funding is              contingency plan had not been developed,
provided for acquiring a secure off-site              the Bureau had contracted for a backup site
storage facility.                                     for the Unisys mainframe computer in the
                                                      event of a disaster and had tested the
                                                      functionality of the backup site.
                                                      Additionally, the Geological Survey had
                                                      agreed to include the Bureau’s operating
                                                      system and security and application software
                                                      as part of the Geological Survey’s
                                                      contingency plan.           However, Bureau
                                                      management had not acquired a secure off-
                                                      site storage facility for the data and files.




                                                 17
                                                                                           APP’ENULX     Z
                                                                                           Page 1 of 9




                 United States Department of the Interior
                                    OFFICE OF THE SECRET.X’t
                                           M’ashington. D.C. 20240




Memorandum

To:            Assistant Inspector General for Audits

From:          Assistant Secretary - Indian AfTairs
                                       ,
Subject:       Drafi Audit Report on Followup                         ,,@ver Automated Information
               Systems, Operations Service Cen                           mairs (A-IN-BIA-00 1-97)

The subject audit report addresses the Bureau of Indian .mairs (Bureau) implementation of the
recommendations made by the Office of Inspector General in its April 1997 audit report entitled
“General Controls Over Automated Information Systems_ Operations Service Center, Bureau of
Indian mairs” (Report No. 97-I-771). The followup audit found that the Bureau had partially
implemented 2 of the 13 recommendations made in the April 1997 report and had not implemented
10 recommendations and that 1 recommendation was no longer applicable. The audit concluded that
the general control risks identified by the prior audit for fiscal year 1996 continued to exist during
fiscal year 1997. The subject audit report includes eight new recommendations.

The Bureau generally agrees with the findings of the followup audit. As noted in our response to the
April 1997 audit, the Office of Information Resources Management was to undergo a reorganization
and redescription of positions because of the transfer of mainframe data processing from the Bureau
to the U.S. Geological Survey. Although the reorganization/ redescription began in fiscal year 1997,
the resignation of the Director and the transfer and subsequent retirement of the Deputy Director
limited its effectiveness. The reorganization is well underway, and the Acting Director, Office of
information Resources Management is on-site in Albuquerque, New Mexico. As discussed below,
the Service Center has taken actions to implement many of the recommendations and to improve its
controls. Finally, the Bureau appreciates the changes made to the draft report from our discussions
on the preliminary draft report.

As requested, we have provided a revised corrective action plan for the unimplemented
recommendations.     To avoid repeating corrective actions, we have included the new
recommendations with the unimplemented recommendations from the prior audit.

Followup Audit Recommendation 1. We recommend that the Assistant Secretary - Indian AfFairs
ensure that the Bureau of Indian Affairs establishes as a high priority the use of the Geological
Survey’s host computer’s operating, security, and automated job scheduling functions.




                                                       18
                                                                                               nrrLlYUl_A   L

                                                                                               Page 2 of 9




Bureau Response. The Bureau concurs. The Service Center will complete the transfer of all IBM
mainframe operations, system software support, and security administration functions to the U.S.
Geological Survey Data Center in Reston, Virginia. by May 3 1, 1998. We consider this
recommendation implemented.

Followup Audit Recommendation 2. We recommend that the Assistant Secretary - Indian Affairs
ensure that the Bureau of Indian AflFairs develops and approves an Office of Information Resources
Management strategic plan which provides direction to and defines the functions of the Operations
Service Center.

Bureau Response. The Bureau concurs. A comprehensive strategic plan for the Office of
Information Resources Management is being developed and finalized under contract with MitreTek.
The strategic plan will be completed by September 30, 1998. The responsible official is the Director,
Offrce of Information Resources Management.

Prior Audit Recommendation A.1. The information technology security function be elevated
organizationally to at least report directly to the Director, Office of Information Resources
Management; is formally provided with authority to implement and enforce a Bureauwide system
security program; and is provided staff to perform the required duties, such as providing computer
security awareness training and performing periodic risk assessments.

Followup Audit Recommendation 3. We recommend that the Assistant Secretary - Indian AfI’airs
ensure that the Bureau of Indian Affairs holds the IT Security Manager accountable for performing
the position responsibilities.

Bureau Response. The Bureau concurs. The information Technology Security Manager’s position
has reported to the Office Director since October 1997. (See Attachment 1.) The position has
Bureauwide authority for the information technology security program. As noted in our response to
the prior report, we believe that sufficient staff will be available to manage the security requirements
once we transfer the remaining processing functions for the IBM computer to the Geological Survey.
As with all employees, Bureau management will hold the Security Manager accountable through the
performance appraisal process. The reorganization will be completed by September 30, 1998. The
responsible official is the Director, Office of Information Resources Management.

Prior Audit Recommendation A.2. A system security program is developed and documented which
includes the information required by the Computer Security Act of 1987 and Ofice of Management
and Budget Circular A-130, Appendix III, and that policies and procedures are implemented to keep
the system security program current.

Followup Audit Recommendation 4. We recommend that the Assistant Secretary - Indian AEairs
ensure that the Bureau of Indian AfTairs performs periodically an evaluation of the system security
program’s effectiveness and includes any resultant corrective actions in future Bureau security plans.

Bureau Response. The Bureau concurs. The Bureau has entered into an agreement with
Washington Administrative Service Center- West to develop a comprehensive computer security plan



                                                      19
                                                                                              APPENDIX 2
                                                                                              Page 3 of 9



that will address computer security policies, operating procedures, responsibilities, contingency
planning and risk analysis. (See Attachment 2.) The plan will be developed in accordance with the
standards and guidance published in the Office of Management and Budget Circular A-130; the
National Institute of Standards and Technology’s Federal Information Processing Standards
Publications dealing with automated information system security; and the Office of Personnel
Management’s Federal Personnel Manual issuances on personal security as they relate to automated
information systems. The plan’s operating procedures and the management control reviews required
by the Department’s Ofice of Information Management will ensure that the plan be periodically
reviewed and updated. The plan will be developed by July 3 1, 1998. The responsible official is the
Information Technology Security Manager.

Prior Audit Recommendation A.3. The Bureau’s security personnel perform risk assessments of
the Bureau’s automated information systems environment and, as appropriate, provide assurance that
the necessary changes are implemented to manage the risks identified.

Prior Audit Recommendation C.l. Develop and implement policies to classify the Bureau’s
computer resources in accordance with the results of periodic risk assessments and guidance
contained in Office of Management and Budget Circular A- 130, Appendix III.

Followup Audit Recommendation 5. We recommend that the Assistant Secretary - Indian Afl?airs
ensure that the Bureau of Indian Affairs redetermines, based on the Office of Information Resources
Management’s strategic plan when the Bureau can begin performing risk assessments and classifying
its resources. Also, personnel who will be responsible for risk assessments resource classifications
should be identified.

Bureau Response. The Bureau concurs. Risk assessments and classifications of the Bureau’s
automated information systems environment will be performed beginning in fiscal year 1999 in
accordance with the Bureau’s security program plan. The Information Technology Security
Management staff will provide oversight of this effort. Risk assessments and classifications will be
done by teams consisting of personnel from the Bureau’s Office of Information Resources
Management and the program offices.

Prior Audit Recommendation B.1. Ensure that personnel security policies and procedures are
developed, implemented, and enforced, including those for obtaining appropriate security clearances
for personnel in sensitive or critical ADP positions and for informing the security staff, in writing,
whenever employees who are system users terminate their employment or are transferred.

Prior Audit Recommendation E.l. Ensure that policies are developed and implemented which
match personnel files with system users periodically, that user ID(s) are deleted from the system for
users whose employment has been terminated, and that verification and approval are obtained from
user supervisors and application owners or managers that the levels of access are appropriate.

Followup Audit Recommendation 6. We recommend that the Assistant Secretary - Indian Afl?airs
ensure that the Bureau of Indian Affairs obtains security clearances for ADP personnel who are not
assigned to the Center that are commensurate with their positions.



                                                    20
                                                                                             APPENDIX 2
                                                                                             Page 4 of 9


Followup Audit Recommendation 7. We recommend that the Assistant Secretary - Indian mairs
ensure that the Bureau of Indian tiairs requires Bureau staff to review and validate the
appropriateness of users’ levels of access to the Bureau’s IBM applications. If the users’ levels of
access are not reviewed and validated by Bureau personnel, the Bureau should modify its agreement
with the Geological Survey to include the requirements that access reviews and verifications be
performed for the IBM applications by the Geological Survey.                 3

Bureau Response. The Bureau concurs. In February 1998, the Bureau reorganized its position
sensitivity and security program. As part of this effort, the Central Ofice is reviewing all sensitive
positions, including information technology positions, to determine whether the positions are
classified consistently. Once the position descriptions are reviewed, the personnel system will be
updated and a listing generated that ,will identity individuals needing initial and upgraded
investigations or reinvestigations. While we will complete this initial effort by September 30, 1998,
the scheduling of the investigations will be dependent on available area office funding. The Bureau’s
Security Officer, however, will monitor the area offices to ensure that the investigations are
completed.      In addition, the Information Technology Security Manager will ensure that the
employee termination report is received and reconciled with system users. The report will also be
provided to the Geological Survey for its use in managing Bureau system user profiles.

Prior Audit Recommendation D.l. Sufficient staff are provided to adequately monitor all visitor
activities.

Prior Audit Recommendation D.2. Funding is provided for adequate maintenance of the computer
operating room, such as providing daily housekeeping services, or that fire-producing equipment and
supplies are removed from the computer room.

Followup Audit Recommendation 8. We recommend that the Assistant Secretary - Indian mairs
ensure that the Bureau of Indian Af??airs removes all safety hazards from the computer room.

Bureau Response. The Bureau concurs in part. We believe that we have implemented these
recommendations to the extent possible given our available resources. Monitoring of visitor activities
is handled by the organizational element receiving the visitor(s). All non-Service Center personnel
must register with the information Technology Security Manager. A minimum number of access keys
have been provided to custodial, building security, and GSA building managers based upon their need
to enter the facility. In addition, the Service Center has funded full time housekeeping and
maintenance service for the computer room and ancillary facilities beginning in fiscal year 1998.
Finally, the Service Center has corrected the safety deficiencies identified by the Division of Safety
Management in its annual safety and health evaluation for fiscal year 1997.

Prior Audit Recommendation G.1. Ensure that policies and procedures are developed and
implemented which clearly identify the individuals responsible and accountable for application
development and changes.

Bureau Response. The Bureau concurs. The Bureau recruited and filled the Chief, Applications
Support Branch, position in November 1997. The Branch is developing and implementing standards,



                                                    21
                                                                                             APPENDIX 2
                                                                                             Page 5 of 9



procedures, and policies to ensure full accountability for all application system change management
and production implementation of the Office’s applications. This guidance, when finalized, will be
distributed to all Bureau offices which develop and/or maintain application systems. The responsible
official is the Chief, Applications Support Branch.

Prior Audit Recommendation H.l. Ensure that staffing at the Center is evaluated and adjusted so
that duties for critical system support functions are adequately segregated and fully utilized.

Prior Audit Recommendation 1.1. Ensure that access and activities of the Center’s system
programers are controlled and monitored by security staff and that Resource Access Control Facility
(RACF) controls are established to protect system resources.

Bureau Response. The Bureau concurs. This has been accomplished for the applications residing
on the IBM computer with the transfer of the remaining application operations system software
support, and security functions to the Geological Survey. The operating system and security features
of the new Unisys NX Server provide much improved safeguards for the data and applications
residing on this platform. Although RACF controls are not compatible with the Unisys NX Server,
the Bureau will establish similar controls. Finally, separation of duties, to the extent possible, was
considered during the reorganization/redescription of positions for the Service Center. We consider
these recommendations implemented.

Prior Audit Recommendation J.1. Ensure that a contingency plan is developed and tested and that
funding is provided for acquiring a secure off-site storage facility.

Bureau Response. The Bureau concurs. As stated in the draft audit report, the Bureau has a
disaster recovery contract that has been fully tested and certified for the Unisys hosted applications.
In addition, the Bureau has obtained off-site storage for its backup media at the Southwestern Indian
Polytechnic Institute which is approximately 8 miles from the Service Center. We consider this
recommendation implemented.



Attachments




                                                    22
                                                                          ‘IL   L   Y&.uI*L   -



                                                                          Page 6 of 9
                                                                          Attachment #l



                          United States Department of the Interior
                                      BUREAU OF INDIAN AFFAIRS
                                       Information Resources Management
                                           Operations Service Center
                                            500 Gold Avenue, S.W.

                                                 P-0. Box 888
                                        Albuquerque, New Mexico 87103



Office of Information Resources Management
Operations Senke Center
MS4514                                           m-       3 1998

      MEMORANDUM


      REPLY TO
      AITN OF: Acting Director, Office of fnformation Resources Management

         SUBJECT: Bureau AIS Security Officer Status.              ’

             T-0:.   Acting Director, Management and Administration

      In accordance with the recommendation of the Department Inspector General, Position
      Number KOO283-01223, GS-0334~13, Computer Specialist within our Operations Service
      Center, has reported directly to the undersigned since October 26, l-997.

     This position is encumbered by Jerry K. Bel
     Automated Information Systems (AIS) Secun




      CC:
      Personnel office, Albuquerque Area Office
      Jerry Fiely, Deputy Director - Audit & Evaluation




                                                           23
                                                                                .I1   --w..LYI..I   I   h




                                                                                APPENDIX 2
                                                                                Page 7 of 9



                                                               WASC- West Project Scope Statement
                                                                                             &t&r& I998
                                                                                 RevisedMarch IO, I998



Project Number 98-053

Project Titie
Development of Security Plan

Client
BIA

Program Manager
Tony Manzi, WASC-West

Project Leader
Ellen Erikson

Project Team
wA!Sc:       5m Opeka
USGS:           Blanche Heard
BLA:            Jerry Belew; Lorraine Jaramillo; Wesley Anderson

Project Description

         Problem Statement
         The Bureau of Indian Affairs @A) has identified the need to develop a comprehensive
         computer security plan. The plan will address computer security policies, operating
         procedures, responsibilities, contingency planning, and risk analysis. The plan should be
         developed in accordance with the standards and guidance published in the Office of
         Management and Budget (OMB) Circular No. A-130; the National Institute of Standards
         and Technology’s Federal Information Processing Standards Publications (FIPS PUBS)
         dealing with automated information system security; and the Office of Personnel
         Management’s Federal Personnel Manual issuances on personal security as they relate to
         automated information systems.

         Background
         BIA recently transferred its mainframe computer applications from Albuquerque, NM to
         the U.S. Geological Survey (USGS) mainf?ame computer in Reston, VA The
         applications are currently operating in a separate partition of the USGS mainfkame. BIA
         is responsible for administering security for these applications. There are still a number of
         BIA applications running on hardware located in Albuquerque, NM. BIA staffis also
         responsible for security at the Albuquerque installation.

         In addition, the Office of the Inspector General issued a draft audit report (A-IN-BIA-

                                                  24
                                                                                         APPENDIX 2
                                                                                         Page 8 of 9




                                                            W&C- Wesi Project Scope LWztement
                                                                                 M-& 1998
                                                                             Revived March IO,1998



      001-97) in February 1998, that identifies a number of issues and recommendations relative
      to computer security.

      The proposed security plan needs to address security policies, standards, and procedures
      that are applicable to the current operating environment, consistent with applicable USGS
      policies and procedures, and responsive to the recommendations in the draft audit report.

      Project Objectives
      The objective of this project is to develop a comprehensive computer security program
      that:

      0      complies with applicable Federal regulations and guidelines,
      0      provides an appropriate response to the OIG draft audit report, and
      0      ensures that BIA hardware, software, and application data is secure.

      The computer security program will address the following:
      0     security policies, standards, and operating procedures,
      0     administrative, physical, application., and personal security,
      0     individual and organizational security responsibilities,
      0     contingency and disaster recovery planning,
      0     risk analysis policies and procedures.

      Target Deliverable Dates
      March 20,1998                  Proposed Project Scope Statement delivered to BIA
      April 3,1998                   Proposed Project Scope Statement approved by BIA
      April lo,1998                  Detailed project plan delivered to BIA
      May 29,1998                    Draft security plan delivered to BIA
      June 19,1998                   Draft security plan approved by BIA
      July 3,1998                    Fii security plan delivered to BIA
      July 10, 1998                  Proposal for implementing security plan delivered to BIA (if
                                     requested)

Project Methodology

      General Approach
      A project team will be established that includes representation from BLA, the WASC, and
      USGS. The team will review appropriate Federal guidelines and regulations, interview
      applicable computer personnel, inventory BIA applications residing in Reston and
      Albuquerque, review applicable USGS computer security plans, and review the OIG draft
      report findings and recommendations. The project leader will provide periodic project
      status updates to the WASC-West program manager who in turn will provide updates to

                                                25
                                                                                APPENDIX 2
                                                                                Page 9 of 9




                                                   WASC West Project Scope Statement
                                                                         M-arch 1998
                                                                     Revised March IO, 1998



BIA management. Policy and procedures issues will be brought to BIA management for
resolution as required.

Assumptions
BIA applications currently operating in a separate partition of the USGS mainframe
computer will eventually migrate to the general production area of the mainframe and
RACF security for BIA will be integrated into the regular production RACF security
database.

Mainframe computer security administration will eventually be the responsibility of USGS
personnel.

At least one member of the project team will be familiar with the BIA Unisys system
applications and access controls.




                                        26
                                                                        APPENDIX 3




 STATUS OF CURRENT AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference                 status                    Action Required


        land8            Implemented.             No further action is required.

    2,3,4, 5, and 6      Resolved; not            No further response to the Office
                         implemented.             of Inspector General is required.
                                                  The recommendations will be
                                                  referred to the Assistant Secretary
                                                  for Policy, Management and
                                                  Budget for tracking of
                                                  implementation.

           7             Management concurs;      Provide target dates for when (1)
                         additional information   the IT Security Manager will begin
                         needed.                  receiving the employee termination
                                                  reports and (2) the supervisors and
                                                  application owners will begin
                                                  approving levels of access.
                                                  Additionally, a copy of the
                                                  modified agreement with the
                                                  Geological Survey requiring access
                                                  reviews and verifications should be
                                                  provided to the Office of Inspector
                                                  General.




                                           27
                                                                      APPENDIX 4



   STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference                     status                 Action Required


  A.1, D.l,I.l, and J.1   Implemented                 No further action required.

 A.2,A.3,B.l,C.l,D.l,     Resolved, not implemented   No further response to the
   E.1, G.1, and H.1                                  Office of Inspector General is
                                                      required. ‘The
                                                      recommendations will be
                                                      referred to the Assistant
                                                      Secretary for Policy,
                                                      Management and Budget for
                                                      tracking of implementation.




                                        28
I


                    ILLEGAL OR WASTEFUL ACTMTIES
                        SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL BY:

    Sending written documents to:                                  Calling:


                          Within the Continental United States

    U. S . Department of the Interior                     Our 24-hour
    Office of Inspector General                           Telephone HOTLINE
    1849 C Street, N.W.                                   l-800-424-508 1 or
    Mail Stop 5341                                        (202) 208-5300
    Washington, D . C . 20240


                                                          TDD for hearing impaired
                                                          (202) 208-2420 or
                                                          l-800-354-0996


                          Outside the Continental United States

                                         Caribbean Region

    U.S. Department of the Interior                       (703) 235-9221
    Office of Inspector General
    Eastern Division - Investigations
    4040 Fairfax Drive
    Suite 303
    Arlington, Virginia 22201

                                        North Pacific RePion

    U .S . Department of the Interior                     (67 1) 647-605 1
    Office of Inspector General
    North Pacific Region
    415 Chalan San Antonio
    Baltej Pavilion, Suite 306
    Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FT’S/Comercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail stop 5341
Washington, D.C. 20240
